U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           OFFICE OF THE SECRETARY

               Departmental Fund Management
                   Practices Need Improvement


   Final Inspection Report No. FSD-14271/September 2001




                              PUBLIC
                              RELEASE



   Office of Audits and Financial Statements Audits Division

U.S. Department of Commerce                                            Final Report FSD-14271-1-0001
Office of Inspector General                                                           September 2001

BACKGROUND

The following chart depicts the total costs (in millions) of the funds reviewed from fiscal year
1996 through fiscal year 2000. It shows that the costs of the S&E, A&R, and G&B have
remained fairly consistent over the past five years, while the costs of the WCF have increased by
about 50 percent. Fluctuations during the latest 3-year period resulted in large part from an
increased security program and financial systems costs.




In fiscal year 2000, costs incurred for these funds totaled approximately $194 million, of which
57 percent was WCF, 26 percent was A&R, 16 percent was S&E, and less than 1 percent was
G&B.

Salaries & Expenses Fund. The S&E is supported by a direct appropriation that is used
primarily to fund the personnel costs of senior departmental officials and their key staff. It
includes the salaries and expenses of the Immediate Office of the Secretary, senior staff in each
of the major offices that directly support the Secretary, and policy staff within the organizations
that provide centralized departmental services (e.g., Budget, Human Resources, Chief
Information Office).

Advances & Reimbursements Program. The A&R program is a set of accounts used to record
funding for projects whose expenses, although initially borne by the S&E, are eventually
reimbursed by either the Commerce bureaus or other federal agencies. Approximately 70 percent
of the amount reimbursed is directly related to rent for the Herbert C. Hoover building and
telecommunications. These costs are paid through the S&E appropriation and charged back to
the bureaus generally based on their number of full-time equivalent positions or the amount of
space occupied.



                                                 2

U.S. Department of Commerce                                             Final Report FSD-14271-1-0001
Office of Inspector General                                                            September 2001

Costs associated with projects that are deemed to be of indirect benefit to the Department as a
whole are also paid for through A&R and recovered through pro-rated charges to bureau
appropriations. For example, salaries and expenses associated with such initiatives as the Human
Resources Management Executive Resources Board, the Office of Budget’s GPRA efforts, the
Acquisition Management Commerce Information Technology Solutions program, and the
Hispanic American Colleges & Universities Intern Program are charged to and recovered through
this fund. In addition, reimbursements from other federal agencies under the Economy Act, such
as those for the General Counsel’s U.S. Agency for International Development Commercial Law
Development Program, are also recorded under A&R.

Obligations charged to A&R are effectively obligations against the S&E appropriation; therefore,
in order to avoid exceeding the appropriation, all A&R expenditures must be recovered in the
fiscal year in which they were incurred.

Working Capital Fund. The legislation (15 U.S.C. 1521) establishing the WCF authorizes its
use to support services that can be performed more advantageously as central services. Created
by statute in 1944 expressly to provide central duplicating and photostatic services, the
authorizing legislation also permits the WCF to be used as a mechanism to account for the costs
of a broad range of other services, such as Security, Human Resources, and Legal Counsel, that
departmental management believes can be most efficiently provided by a centrally managed and
funded organization. Algorithms are used to allocate the costs of such common services to the
bureaus. Some costs, such as costs for security services that are acquired by the central
organizations for the benefit of only one bureau, are also financed through the WCF but charged
to the organization receiving the services. The authorizing legislation initially capitalized the
fund at $100,000 without fiscal year limitation.

The WCF is an intra-governmental services fund similar to those established in a number of
other federal agencies, including the General Services Administration (GSA), Department of
Labor, and Department of Justice. Typically within this type of fund, property, plant, and
equipment can be capitalized and depreciated over their useful lives. Financing of service
activities, such as centralized printing and reproduction operations, that require significant capital
investments in property and operating equipment through a WCF is logical because the portion
of the operating costs associated with capital expenditures can be allocated to the appropriate
fiscal years, thus resulting in more accurate cost allocations and more accurate cost recoveries.
With some exceptions, the Department’s WCF activities do not require significant investments in
capital assets. Most incur only salary and other direct annual expenses. Thus, the WCF tends to
complicate accounting for many services because the process of allocating costs, including the
indirect costs of managing the fund itself, is cumbersome and labor intensive.

Gifts & Bequests Fund. The Department receives donations in the form of gifts and bequests
that can be used in carrying out the work of the Department. They are to be used in accordance
with the terms provided by the donor or, if an unconditional gift or bequest, used for purposes of



                                                  3

U.S. Department of Commerce                                            Final Report FSD-14271-1-0001
Office of Inspector General                                                           September 2001

official entertainment and representation, program support, official travel, or other authorized
activity deemed a mission-related necessity.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit survey objectives were to determine whether: (1) charges made to the funds are
consistent with the funds’ stated purposes, (2) recent increased charges to the bureaus appear
justified, and (3) algorithms used for charging bureaus appear reasonable and properly applied.
Our audit survey focused on selected aspects of the fund management practices of S&E, A&R,
WCF, and G&B in fiscal year 2000.

The scope of our audit survey included gaining an understanding of management’s controls to the
extent necessary to achieve the objectives specified above. Weaknesses noted in management’s
controls and related recommendations are discussed in the “Findings and Recommendations”
section below. Since the overall focus of our audit survey was to perform an assessment of the
Department’s fund management practices, we did not rely on computer-processed data to achieve
the audit survey objectives. As such, no procedures were performed to determine the reliability
of computer-processed data. In addition, other than our procedures related to the review of the
WCF’s authorizing legislation discussed in “Charges within the S&E, A&R, and WCF Appear
Consistent with Each Fund’s Purpose” in the following section, we did not assess the
Department’s compliance with applicable laws and regulations.

The methodology for our audit survey included interviews with Department and bureau
representatives and review of pertinent documents such as WCF authorizing legislation, the
Department of Commerce chapter of the FY 2001 Budget of the U.S. Appendix, the FY 2000
WCF Handbook, the FY 2000 A&R Projects Description Handbook, prior year audit reports, and
selected project folders for each fund. During the audit survey and at its conclusion, we
discussed our findings with the Director of the Office of Executive Budgeting (OEB). Our
fieldwork was conducted at Commerce headquarters in Washington, D.C., during April and May
2001.

FINDINGS AND RECOMMENDATIONS

I.     Charges within the S&E, A&R, and WCF Appear Consistent with Each Fund’s Purpose

We interviewed departmental and bureau personnel in order to gain an understanding of the
purposes, uses, and activities of the funds, as well as the operations of the OEB, which provides
the financial stewardship and management of the funds, and reviewed pertinent documents, such
as the WCF authorizing legislation, the Department’s FY 2001 budget, and WCF and A&R
handbooks. Each handbook provides a description of the projects within the fund, as well as a
summary of the methodology used to charge costs to the bureaus (i.e., the basis of charge). We
also reviewed billing reports to determine whether projects charged to the bureaus are covered
within the handbook.


                                                 4

U.S. Department of Commerce                                           Final Report FSD-14271-1-0001
Office of Inspector General                                                          September 2001

Generally, the Department has used the various funds as follows:

•	     S&E. Funds the Departmental policy-setting management and related key staff –
       including both departmental policy on national or governmental issues and internal
       departmental issues.

•	     A&R. Acts as a centralized collection source for the cost of special activities or
       programmatic events and their billing to users.

•	     WCF. Provides, on a reimbursable basis, Department-wide administrative services that
       are more efficiently and economically performed on a centralized basis.

Based on these practices, other relevant information obtained, and documents reviewed, the
Department appears to have a reasonable basis for segregating costs among the funds. Our
review of costs associated with a sample of projects did not identify any instances where projects
included within the funds had charges that were inconsistent with the stated purposes of the
funds.

However, we did find that OEB, among other things, is responsible for formulating and
reviewing the operating budget estimates for the WCF, S&E, A&R, and G&B, but lacks clear,
written operating policies and procedures for administering the funds. In addition, at the time of
our audit survey fieldwork, the FY 2001 handbooks had not yet been completed and distributed
to the bureaus. We also noted instances where the handbooks’ description of the basis of charge
did not accurately state the method used to allocate costs.

Recommendations

We recommend that the Chief Financial Officer and Assistant Secretary for Administration
ensure that:

1.	    The Office of Executive Budgeting clearly documents its operating policies and
       procedures.

2.	    The annual version of the handbooks are completed in a timely manner and that they
       provide a clearer and more accurate description of the bases for charges.

Management’s Planned Actions

OEB is currently documenting its policies and procedures and plans to produce a policies and
procedures manual. In addition, handbooks for the WCF and A&R activities will be produced
within three months after the operating budget is finalized.




                                                 5

U.S. Department of Commerce                                          Final Report FSD-14271-1-0001
Office of Inspector General                                                         September 2001

II.    Increased Charges to the Bureaus Appear Justified

For review purposes, we focused on 6 of the 21 offices of Departmental Management. These 6
offices represent approximately 73 percent of the aggregate Departmental Fund Management
(S&E, A&R, WCF) FY 2001 operating estimate (excluding central charges for rent and digital
department costs), and were selected for review because they represented more than 10 percent of
the total FY 2001 estimate or they were the subject of cost increases and other concerns
expressed by departmental/bureau management. The offices selected for review were:

•      Immediate Office of the Secretary
•      General Counsel
•      Security
•      Financial Management
•      Human Resources Management
•      Administrative Services

Among other things, we compared total billings by project for a 3-year period (FY 1998 - FY
2000), and then we inquired about any significant fluctuations noted and assessed the
explanations provided. We found that the explanations for the more significant recent increases
appeared logical. Most notably, the Office of Security billings increased significantly due to a
revamping of the Department’s security program whereby bureau security staffs were centralized
within the Department and funded through the WCF. We also compared operating estimates to
actual total charges for projects within selected offices. While we did not include any tests of
specific costs (within a project) charged to the bureaus, we found no instances of unexplained
costs charged to the bureaus.

III.   Algorithms Used to Allocate Costs Appear Reasonable and Properly Applied

For each project described in the WCF Handbook and the A&R Project Descriptions Handbook,
there is an explanation of how the costs associated with that project will be allocated among the
Department’s bureaus. Once the basis for allocating a project’s costs is determined, an algorithm
is used to perform the allocation.

As part of our review, we assessed the basis of charge and the algorithms used for the projects we
examined. Our focus was to evaluate the reasonableness of the basis of charge, not to determine
whether it represented the best method of allocation. We discussed the basis of charge and
algorithms used with OEB personnel and reviewed OEB documentation supporting the allocation
of costs.

We did not note any specific instances where the algorithm used to allocate costs appeared to
unfairly burden or benefit any bureau. In addition, we did not identify any instances where the
algorithms appeared to have been improperly applied. We did note, however, that some of the

                                                6

U.S. Department of Commerce                                            Final Report FSD-14271-1-0001
Office of Inspector General                                                           September 2001

project folders maintained by OEB did not contain all of the relevant documentation supporting
the allocation of costs. For example, in some instances the justification for selecting the project’s
basis of charge, source documents for amounts used in algorithms, and explanations for variances
in departmental office budgets – current year to prior year – were missing from the project
folders. However, we obtained this information from OEB personnel or the departmental offices.

Recommendation

We recommend that the Chief Financial Officer and Assistant Secretary for Administration
ensure that more detailed documentation is included in the individual project folders to support
the allocation of costs.

Management’s Planned Action

OEB believes that overall the folders contain sufficient documentation but will enhance its
documentation by standardizing the data to be contained within each folder.

IV. 	   Bureau Concerns, Cost Containment Efforts, and the Role of the WCF Advisory
        Committee Require Management’s Attention

Bureaus Cite Problems with Departmental Fund Management Operations

We interviewed bureau representatives and other persons knowledgeable about Departmental
Fund Management operations to identify their primary concerns. We also had follow-up
discussions with OEB and determined that they are aware of the problems. However, presently,
there is no formal mechanism to track and ensure that all bureau concerns are addressed. The
most frequently cited concerns are summarized as follows:

•	      Lack of timely information necessary for bureaus to manage their funds. The bureaus
        are very concerned that they do not always receive the annual operating budgets and
        monthly billing reports in a timely manner. This hinders their ability to effectively plan
        and manage their financial operations.

•	      Continual increases in the WCF operating budgets. As noted, the costs of the WCF
        have increased by about 50 percent over the past 5 years (while costs of the other
        departmental management funds have remained fairly steady). Bureau representatives
        perceive these increases to be excessive and expressed concern that they are not informed
        about the increases in a timely manner and have little, if any, option but to fund them. In
        particular, there is widespread concern about whether incentives and necessary controls
        exist to ensure proper cost containment.




                                                 7

U.S. Department of Commerce                                            Final Report FSD-14271-1-0001
Office of Inspector General                                                           September 2001

       However, during our review, we looked at increased cost over the past three years of the
       WCF taken as a whole. Management’s explanations for significant fluctuations appeared
       logical and reasonable. See “Increased Charges to the Bureaus Appear Justified” on page 6.

•	     Lack of bureau input over the departmental office budgets. The bureaus are not
       provided with an opportunity to review departmental office budgets and comment on the
       impact of the allocation of their costs on bureau programs.

Cost Containment Measures for WCF Should Be Strengthened

Our review did not reveal any effective internal control measures to contain costs. As previously
discussed, the WCF has increased by 50 percent over the past five years, rising from $74.2
million in fiscal year 1996 to $111.2 million in fiscal year 2000. While the increase for that
period appears to be justified based upon a sample of selected projects, there is no apparent
incentive for managers of the fund to contain cost increases to the absolute minimum. Instead,
WCF managers appear to have the ability to “tax” bureaus to fund increases in the WCF with
little or no input from the bureaus or scrutiny from congressional oversight committees through
reprogramming procedures. As a result, there is concern that certain controversial or unfavorable
program initiatives can be funded through the WCF without a thorough review of the cost.

Indeed, some senior departmental financial managers acknowledge that cost control measures for
the WCF should be strengthened. Moreover, the Department’s congressional oversight
committee is concerned about the growth of the WCF. Hence, we believe that it is critical for the
Chief Financial Officer and Assistant Secretary for Administration to establish such financial
management controls in the WCF to best ensure WCF costs are controlled as appropriate. We
are aware that the Department is in the process of convening a task force to study this concern, in
addition to studying other WCF issues.

The WCF Advisory Committee Can Be More Effective

The WCF Advisory Committee was established in March 2000 primarily to discuss the WCF’s
budget for the next fiscal year and changes in the billing process, as well as to obtain bureau
input. The committee has two subcommittees: an Algorithm Subcommittee and a PTO
Subcommittee. The committee, which is composed of representatives from OEB and each of the
Department’s bureaus, is viewed as a vehicle to communicate and disseminate WCF information
to the bureaus, as well as to obtain bureau input about certain matters.

During our review, we found that the committee lacks a formal charter and its authority, mission,
objectives, responsibilities, and procedural guidelines are not appropriately documented or
understood by all participants. It is also unclear what the committee’s role is to be in (1) setting
fund direction or policy and (2) assisting in the fund’s cost containment efforts. Finally, we are
concerned that the committee does not appear to track and address specific bureau concerns or

                                                 8

U.S. Department of Commerce                                           Final Report FSD-14271-1-0001
Office of Inspector General                                                          September 2001

examine departmental office budgets and provide feedback/recommendations based on the
impact of budgets on the bureau program funding.

Recommendations

We recommend that the Chief Financial Officer and Assistant Secretary for Administration
ensure that:

1.	    An annual report is prepared that specifically identifies the Departmental Fund
       Management financial activities, which is then provided to the bureaus, the OIG, and
       appropriators. This report should, at a minimum, include total costs and billings by
       project and office for each fund; explanations for significant variances between budget
       and actual costs, as well as between current year and prior year costs; and a rationale for
       establishing new projects or changing the basis of charge in projects.

2.	    A plan is developed that tracks and addresses bureau concerns, including the need for
       bureaus to be provided with timely information on all funds (e.g., operating budgets and
       reports).

3.	    The role of the WCF Advisory Committee is clearly defined and, as appropriate, its
       membership, authority, mission, and objectives are established. Among other tasks, the
       committee could function as an advisory-oversight body to the WCF and help it address
       such matters as:

       •	      Ensuring that the WCF operations are transparent and accountable to its bureau
               customers;

       •	      Ensuring that adequate financial management controls (especially cost
               containment) are established for the WCF;

       •	      Reviewing annual budgets for the WCF and providing feedback;

       •	      Requiring timely information and frequent communication with bureau
               customers;

       •	      Reviewing new or changed projects and algorithms; and

       •	      Addressing problems cited by the bureaus.




                                                 9

U.S. Department of Commerce                                          Final Report FSD-14271-1-0001
Office of Inspector General                                                         September 2001

Management’s Planned Actions

OEB will implement annual reporting to bureaus, the OIG, and appropriators in March each year.
The Department plans on replacing the WCF Advisory Committee with a WCF Executive Board,
which it envisions as a decision-making body. A charter being developed for the board will be
forwarded to the Secretary after bureau input is received. The new WCF Executive Board will
develop an action plan to address bureau concerns.


                                            *****

We believe that the actions planned or taken as described in OEB’s audit action plan and
summarized above, if properly implemented, will meet the intent of our recommendations.
Accordingly, pursuant to Department Administrative Order 213-5, we regard this audit report as
resolved. Consistent with Government Auditing Standards, during our audit of the Department’s
fiscal year 2001 consolidated financial statements, we plan to verify that the actions planned or
reported as taken have been effectively implemented.

We appreciate the cooperation and courtesies extended to us by your staff during our review.


Attachment



cc:    Robert Kugelman, Director, Office of Executive Budget and Assistance Management




                                               10

U.S. Department of Commerce                                 Final Report FSD-14271-1-0001
Office of Inspector General                                                September 2001

                                                                     ATTACHMENT A

                      Offices Funded Under Departmental Management

Departmental Services
      Security

      Chief Information Office

      Small and Disadvantaged Business Utilization

      Budget

      Management and Organization

      Executive Assistance Management

      Financial Management

      Human Resources Management

      Civil Rights

      Administrative Services

      Acquisition Management


Executive Direction
      Immediate Office of the Secretary

      Chief of Staff

      Executive Secretariat

      Deputy Secretary

      Business Liaison

      Policy and Strategic Planning

      Public Affairs

      General Counsel

      Legislative and Intergovernmental Affairs

      Chief Financial Officer

